UNITED STATES SUPREME COURT
J

Anthony C. Green,

DECLARATION OF SERVICE

Petitioner,

Court File No:

V.
Kelley Lake, et al.
Defendants,
STATE OF MINNESOTA

)

)Ss.
COUNTY OF CARLTON

)

I Anthony C. Green, state that on July 10, 2020 we served:
• re-served one (1) copy of CORRECTED PETITION FOR WRIT OF CERTIORARI,
upon Brandon Boese, Assistant Attorney General, 445 Minnesota Street, Suite # 1800,
St. Paul, Minnesota 55101-3124, by placing said documents in the United States mail.
• re-served one (1) copy of CORRECTED PETITION FOR WRIT OF CERTIORARI,
Nathan Midolo, Attorney at Law, 9321 Ensign AVe. South, Bloomington, Minnesota
55438, by placing said documents in the United States mail.
• re-served one (1) copy of CORRECTED PETITION FOR WRIT OF CERTIORARI,
Daniel P. Kurtz, Attorney at Law, 145 University Ave. West, St. Paul, Minnesota 551013124, by placing said documents in the United States mail.
• re-served one (1) copy of CORRECTED PETITION FOR WRIT OF CERTIORARI,
Scott S. Harris, Clerk of United States Supreme Court, One First Street North East,
Washington, D.C., 20543-0001, by placing said documents in the United States mail.

I Anthony C. Green, declare under the penalty of perjury that everything we stated in
this document is true and correct. See Minn. Stat. § 358.116.

